Supreme Court, U.S.
FILED

WAIVER

NOV 2 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-623

Amy R. Gurvey

V.

Cowan Liebowitz & Latman, P.C. et al

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Cowan, Liebowitz & Latman, PC, and William Borchard, Midge Hyman, Baila Celedonia, and Christopher Jensen

El I am a

member of the Bar of the Supreme Court of the United States.

0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.

l""'

Signature
Date.

November 18, 2020

(Type or print) Name

A. Michael Furman
Mr. 0 Ms. 0 Mrs. 0 Miss

Firm

Furman Kornfeld & Brennan LLP

Address

61 Broadway, 26th Floor

City & State
Phone

New York, New York

212-867-4100

Zip
Email

10006

mfurman@FKBlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Amy R. Gurvey

Furman Kornfeld
& Brennan LLP

61 Broadway, 26th Floor, New York, NY 10006
Tel: 212-867-4100 Fax: 212-867-4118
www.fkblew.torri

November 18, 2020
VIA UPS Overnight
AND EMAIL
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Attn: Clerk of Court
Re:

Gurvev v. Cowan Liebowitz & Latvian, PC, et al.; No. 20-623

To the Honorable Court:
This Firm represents respondents Cowan, Liebowitz & Latman, PC, and William Borchard,
Midge Hyman, Baila Celedonia, and Christopher Jensen (collectively, the "Cowan Attorneys").
We write to waive a response to the petition of Amy R. Gurvey, pro se ("Appellant Gurvey"),1
seeking a writ of certiorari from the June 23, 2020 Order of the U.S. Court of Appeals for the
Federal Circuit ("Order") transferring pro se Appellant's petition seeking writ of mandamus to
the Court of Appeals for the Second Circuit.
Although the Cowan Attorneys waive a response to Gurvey's petition seeking a writ of
certiorari to this Court, pro se Appellant Gurvey's instant petition asserts the same arguments
previously asserted in her April 18, 2019 petition for writ of certiorari to the Court.2 Ultimately,
the Court denied Gurvey's petition, and thereafter denied a Pro Se Appellant Gurvey's request for
a rehearing. Gurvey, 757 F. App'x 62, cert. denied, 140 S. Ct. 161, 205 L. Ed. 2d 52 (2019), reh'g
denied, No. 18-8930, 2019 WL 6257536 (U.S. Nov. 25, 2019).
Therefore, the Cowan Attorneys respectfully waive a response to pro se Appellant

While Appellant presents herself as a non-lawyer, she was in fact admitted to the bar in New York, but has been
suspended from practice for the "pursuit of frivolous and vexatious litigation, as well as her misrepresentations to
the court[.]" Matter of Amy. R. Gurvey, 2012 NY Slip Op 92297(U) (1st Dept. Dec. 4. 2012).

2 Ms. Gurvey's April 18, 2019 petition for writ of certiorari asserts as a questioned presented: "Whether Petitioner, a
pro se Patentee, was denied constitutional access to the SDNY to litigate patent infringement, and inducing
infringement claims against the patent lawyers' defendant clients Clear Channel and Live Nation, Instant Live
Concerts, LLC and Mike Gordon of Phish in violation of Federal Circuit law including to file and serve an amended
complaint once her first US patents issued during the case?" !fst.p.5.11www.sg_premecourt.gpy/DocketPDF/.18/18-

8930/97179/20190423115940153 00000008.pdf

Westchester 570 Taxter Road, 5th Floor Elmsford, NY 10573 I Te1:914-920-4000 I Fax: 914-347-389

long Island: 666 Old Country Road, Garden City, NY 11530 I Tel: 718-983-3501

CEIVED
NOV 2 5 2020
OrT1Pf. Qr? TI-M CLERK

SUPR r1VI . COUR rr U.S.

Clerk of Court
Gurvey v. Cowan Liebowitz & Latman, PC, et al.; No. 20-623
Page 2

Gurvey's instant petition seeking a writ of certiorari.

Respectfully submitted,
FURMAN KORNFELD & BRENNAN LLP,

A. Michael Furman

